                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00026-258




       Community Based Outpatient 

             Clinic Reviews 

                    at 

         Hunter Holmes McGuire 

           VA Medical Center 

             Richmond, VA 





July 26, 2013

                      Washington, DC 20420
                      Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with consistent,
safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to equip
VA with ways to provide veterans with medically needed care in a more
equitable and cost-effective manner.          As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout the
United States. CBOCs were established to provide more convenient access to
care for currently enrolled users and to improve access opportunities within
existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

  To Report Suspected Wrongdoing in VA Programs and Operations
                      Telephone: 1-800-488-8244
                      E-Mail: vaoighotline@va.gov
   (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                      CBOC Reviews at Hunter Holmes McGuire VAMC



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       MH       mental health
                       MPSC     Medical Professional Standards Committee
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       PSB      Professional Standards Board
                       VAMC     VA Medical Center
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                    CBOC Reviews at Hunter Holmes McGuire VAMC



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 6 Director Comments ...............................................................................                    12

  B. Hunter Holmes McGuire VAMC Director Comments .........................................                                      13

  C. OIG Contact and Staff Acknowledgments .........................................................                             16

  D. Report Distribution .............................................................................................           17





VA OIG Office of Healthcare Inspections
                                                   CBOC Reviews at Hunter Holmes McGuire VAMC



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of April 1, 2013.

The review covered the following topic areas:

	   WH

	   Vaccinations

	   C&P

	   EOC

	   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

     VISN       Facility                   CBOC Name             Location
                Hunter Holmes              Charlottesville       Charlottesville, VA
       6        McGuire VAMC               Emporia               Emporia, VA
                                     Table 1. Sites Inspected

Review Results: We made recommendations in four review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that patients with normal cervical cancer screening results are notified of the
   results within the required timeframe and that notification is documented in the EHR.

	 Ensure that clinicians administer pneumococcal vaccinations when indicated.

	 Ensure that the PSB submits actions and recommendations to the MPSC and that
   meeting minutes reflect documents reviewed and the rationale for privileging or
   reprivileging providers at the Charlottesville and Emporia CBOCs

	 Ensure that managers minimize risks associated with the handling, storing, and
   disposing of hazardous materials in the hazardous waste storage room at the
   Charlottesville CBOC.



VA OIG Office of Healthcare Inspections                                                    i
                                            CBOC Reviews at Hunter Holmes McGuire VAMC


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A and
B, pages 12-15, for full text of the Directors’ comments.) We consider recommendation
3 closed. We will follow up on the planned actions for the open recommendations until
they are completed.




                                                 JOHN D. DAIGH, JR., M.D.
                                                Assistant Inspector General for
                                                     Healthcare Inspections




VA OIG Office of Healthcare Inspections                                             ii
                                                          CBOC Reviews at Hunter Holmes McGuire VAMC



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                              CBOC Reviews at Hunter Holmes McGuire VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                               2
                                                                                                        CBOC Reviews at Hunter Holmes McGuire VAMC



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                      Uniques,             Visits,
VISN            Parent Facility                    CBOC Name                     Locality6                                                CBOC Size9
                                                                                                      FY 20127            FY 20128
                                                  Charlottesville                  Urban               2,672               15,662           Mid-Size
                                               (Charlottesville, VA)
    6     Hunter Holmes McGuire                      Emporia                       Rural                1,338               7,867             Small
                  VAMC                            (Emporia, VA)
                                             Stafford/Fredericksburg               Urban                4,177              22,964           Mid-Size
                                              (Fredericksburg, VA)
                                                                Table 2. CBOC Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                          CBOC Reviews at Hunter Holmes McGuire VAMC



                    WH and Vaccination EHR Reviews 

                     Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as noncompliant needed
improvement. Details regarding the finding follow the table.

            NC                                        Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
             X                 Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                Table 3. WH

There were 18 patients who received a cervical cancer screening at the Hunter Holmes
McGuire VAMC‘s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 18 EHRs of patients who had normal cervical cancer
screening results and determined that 2 patients were not notified within the 14 days
from the date the pathology report became available.




10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html. 

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 



VA OIG Office of Healthcare Inspections                                                                      4
                                                           CBOC Reviews at Hunter Holmes McGuire VAMC


Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of the results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of
vaccinations.13 The NCP provides best practices guidance on the administration of
vaccinations for veterans. The CDC states that although vaccine-preventable disease
levels are at or near record lows, many adults are under-immunized, missing
opportunities to protect themselves against diseases such as tetanus and
pneumococcal.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
that have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element
marked as noncompliant needed improvement. Details regarding the finding follow the
table.

          NC                                      Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccination when indicated.
                      Staff screened patients for the pneumococcal vaccination.
           X          Staff administered the pneumococcal vaccination when indicated.
                      Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                             Table 4. Vaccinations

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.14 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of 10 patients with pre-existing
conditions who received their first vaccine prior to the age of 65. We did not find

13
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.
14
     Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/.


VA OIG Office of Healthcare Inspections                                                                      5
                                           CBOC Reviews at Hunter Holmes McGuire VAMC


documentation in any of the EHRs indicating that their second vaccination had been
administered.

Recommendation

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.




VA OIG Office of Healthcare Inspections                                            6
                                                         CBOC Reviews at Hunter Holmes McGuire VAMC



                                Onsite Reviews 

                         Results and Recommendations 

CBOC Characteristics
We formulated a list of CBOC characteristics that includes identifiers and descriptive
information for the randomly selected CBOCs (see Table 5).

                                         Charlottesville                         Emporia
 VISN                                            6                                   6
 Parent Facility                 Hunter Holmes McGuire VAMC           Hunter Holmes McGuire VAMC
 Types of Providers              Licensed Clinical Social Worker           Clinical Pharmacist
                                     Primary Care Physician          Licensed Clinical Social Worker
                                          Psychiatrist                   Primary Care Physician
                                          Psychologist                         Psychiatrist
 Number of MH                                  523                                  272
 Uniques, FY 2012
 Number of MH Visits,                         2,668                                1,587
 FY 2012
 MH Services Onsite                            Yes                                  Yes
 Specialty Care                             Audiology                              None
 Services Onsite                               WH
 Ancillary Services                         Laboratory                      Electrocardiogram
 Provided Onsite                                                                Laboratory
                                                                                Pharmacy
 Tele-Health Services                     Dermatology                    Care Coordination Home
                                            MOVE15                              Telehealth
                                           Neurology                           Dermatology
                                         Retinal Imaging                    Gastroenterology
                                                                                   MH
                                                                                  MOVE
                                                                             Retinal Imaging
                                         Table 5. Characteristics




15
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                            7
                                                   CBOC Reviews at Hunter Holmes McGuire VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic. The CBOCs identified as
noncompliant needed improvement. Details regarding the findings follow the table.

           NC                                        Areas Reviewed
                         Each provider’s license was unrestricted.
                                              New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                           FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                Privileges and Scopes of Practice
     Charlottesville     The Service Chief, Credentialing Board, and/or medical staff’s
       Emporia           Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.




16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    8
                                                  CBOC Reviews at Hunter Holmes McGuire VAMC


           NC                              Areas Reviewed (continued)
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

Privileging Process. VHA requires that PSB recommendations be submitted to the
medical staff’s Executive Committee for review and approval and that the decision of
the medical staff’s Executive Committee be documented (the minutes must reflect the
documents reviewed and the rationale for the stated conclusion).17 The meeting
minutes of both the MPSC and the medical staff’s Executive Committee did not include
documentation of the review or approval of privileging and reprivileging
recommendations for four of seven providers at the Charlottesville CBOC and one of
two providers at the Emporia CBOC.

Recommendation

3. We recommended that the PSB submits actions and recommendations to the MPSC
and that meeting minutes reflect documents reviewed and the rationale for privileging or
reprivileging providers at the Charlottesville and Emporia CBOCs.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOC identified as noncompliant needed improvement. Details regarding the finding
follow the table.

           NC                                      Areas Reviewed
                        The CBOC was Americans with Disabilities Act-compliant,
                        including: parking, ramps, door widths, door hardware, restrooms,
                        and counters.
                        The CBOC was well maintained (e.g., ceiling tiles clean and in
                        good repair, walls without holes, etc.).
                        The CBOC was clean (walls, floors, and equipment are clean).
                        Material safety data sheets were readily available to staff.
 Charlottesville        The patient care area was safe.
                        Access to fire alarms and fire extinguishers was unobstructed.
                        Fire extinguishers were visually inspected monthly.
                        Exit signs were visible from any direction.
                        There was evidence of fire drills occurring at least annually.
                        Fire extinguishers were easily identifiable.
                        There was evidence of an annual fire and safety inspection.
17
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                   9
                                                            CBOC Reviews at Hunter Holmes McGuire VAMC


            NC                                 Areas Reviewed (continued)
                           There was an alarm system or panic button installed in high-risk
                           areas as identified by the vulnerability risk assessment.
                           The CBOC had a process to identify expired medications.
                           Medications were secured from unauthorized access.
                           Privacy was maintained.
                           Patients’ personally identifiable information was secured and
                           protected.
                           Laboratory specimens were transported securely to prevent
                           unauthorized access.
                           Staff used two patient identifiers for blood drawing procedures.
                           Information Technology security rules were adhered to.
                           There was alcohol hand wash or a soap dispenser and sink
                           available in each examination room.
                           Sharps containers were less than 3/4 full.
                           Safety needle devices were available for staff use (e.g., lancets,
                           injection needles, phlebotomy needles).
                           The CBOC was included in facility-wide EOC activities.
                                                 Table 7. EOC

Hazardous Waste Storage. The Joint Commission requires the minimization of risks
associated with the handling, storing, and disposing of hazardous materials.18 We
found the hazardous waste storage room door open and accessible to patients and
visitors at the Charlottesville CBOC.

Recommendation

4. We recommended that managers minimize risks associated with the handling,
storing, and disposing of hazardous materials in the hazardous waste storage room at
the Charlottesville CBOC.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.19 Table 8 shows the areas
reviewed for this topic.

           NC                                        Areas Reviewed
                          There was a local medical emergency management plan for this
                          CBOC.
                          The staff articulated the procedural steps of the medical emergency
                          plan.
                          The CBOC had an automated external defibrillator onsite for cardiac
                          emergencies.
18
     The Joint Commission Hospital Accreditation Program Manual 2009 Addition, Standard IC 02.02.01.
19
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                                10
                                                 CBOC Reviews at Hunter Holmes McGuire VAMC


        NC                              Areas Reviewed (continued)
                     There was a local MH emergency management plan for this CBOC.
                     The staff articulated the procedural steps of the MH emergency
                     plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                                 11
                                                   CBOC Reviews at Hunter Holmes McGuire VAMC
                                                                                   Appendix A
                            VISN 6 Director Comments


               Department of
               Veterans Affairs                                 Memorandum


       Date:           July 9, 2013 


       From:           Director, VISN 6 (10N6) 


       Subject:        CBOC Reviews at Hunter Holmes McGuire VAMC 


       To:             Director, 54DC Healthcare Inspections Division (54DC) 


                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       I have reviewed the draft report of the Hunter Holmes McGuire VAMC
       CBOC’s review. I concur with the findings and the response by the
       facilities.

       Please contact Lisa Shear, VISN 6 QMO, at 919-956-5541 if there are any
       questions.



       /s/ 


       Daniel F. Hoffmann, FACHE 


       Network Director (VISN 6) 





VA OIG Office of Healthcare Inspections                                                   12
                                                 CBOC Reviews at Hunter Holmes McGuire VAMC
                                                                                 Appendix B

        Hunter Holmes McGuire VAMC Director Comments



               Department of
               Veterans Affairs                               Memorandum


       Date:           July 8, 2013

       From:           Director, Hunter Holmes McGuire VAMC (652/00)

       Subject:        CBOC Reviews at Hunter Holmes McGuire VAMC

       To:             Director, VISN 6 (10N6)



       I have reviewed the findings from the review of the Hunter Holmes
       McGuire VAMC CBOC’s conducted April 1-3, 2013 by the Office of the
       Inspector General (OIG).

       I concur with the findings. The facility response and action plans are
       attached. The actions from Recommendation 3 have been completed and
       we request closure of that recommendation. The data will be placed on
       the OIG share drive and sent by separate email.

       If there are any questions, please contact R. Crystal Polatty, MD at 804­
       675-5000.




       /s/

       John A. Brandecker

       Director




VA OIG Office of Healthcare Inspections                                                 13
                                              CBOC Reviews at Hunter Holmes McGuire VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of the results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: Completed April 12, 2013.

Staff have been re-educated and the Women’s Health Coordinator will monitor
compliance monthly. 100% of CBOC cervical results will be reviewed and data reported
to the Women’s Health Committee (which reports to Medical Executive Board (MEB).

Monitor Numerator/Denominator (N/D) will be number of test notifications documented
within 14 days of result availability=N/number of cervical cancer screens performed=D.
30 results will be reviewed each month unless less than 30. If less than 30, 100% will
be reviewed. The results will also be reported to the Quality Executive Board (QEB)
monthly until > 90% each month for at least 3 months.

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

Concur

Target date for completion: June 20, 2013.

A clinical reminder for re-vaccination in the > 65 years of age population has been
developed and implemented. At the end of each month, all opportunities (visits by
susceptible veterans) will be monitored for compliance with a target of > 90% of eligible
veterans receiving re-vaccination. Monitor will be number revaccinated/number eligible.
The clinical reminder report will be used to collect the data. 100% of clinical reminders
due will be run. Data will be monitored and reported to QEB monthly until > 90% each
month for at least 3 months.

3. We recommended that the PSB submits actions and recommendations for
privileging and reprivileging to the MPSC and that meeting minutes reflect documents
reviewed and the rationale for privileging or reprivileging at the Charlottesville and
Emporia CBOCs.

Concur



VA OIG Office of Healthcare Inspections                                               14
                                               CBOC Reviews at Hunter Holmes McGuire VAMC


Target date for completion: Completed October 2012.

Detailed reports from the Medical Professional Standards Committee (MPSC) have
been presented to the MEB since October 2012. Documentation of 4 months of
compliance is available and will be placed on the OIG share drive and sent by separate
email.

Monthly minutes will be monitored by the Medical Executive Board.

4. We recommended that managers minimize risks associated with the handling,
storing, and disposing of hazardous materials in the hazardous waste storage room at
the Charlottesville CBOC.

Concur

Target date for completion: September 15, 2013.

A work order has been placed ensure automatic door closure on this biohazard room.
The Administrative Practice Manager of the Charlottesville CBOC will conduct random
reviews to ensure that the door to the dirty utility room is locked. Monitor will be number
of times door found locked/number of times inspected. A minimum of 10 inspections
will occur per month. Results will be presented to the QEB monthly until >90%
compliance with locked door for at least 3 months.




VA OIG Office of Healthcare Inspections                                                 15
                                                CBOC Reviews at Hunter Holmes McGuire VAMC
                                                                                Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Gail Bozzelli, RN, Team Leader
Contributors            Bruce Barnes
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Donna Giroux, RN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow-Colón, MBA, Program Support Assistant
                        Patrick Smith, M. Stat
                        Randall Snow, JD
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  16
                                              CBOC Reviews at Hunter Holmes McGuire VAMC
                                                                              Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 6 (10N6)
Director, Hunter Holmes McGuire VAMC (652/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tim Kaine, Mark R. Warner
U.S. House of Representatives: J. Randy Forbes, Robert Hurt, Robert C. “Bobby” Scott,
 Robert J. Wittman


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              17
